No. 20-7889

 

IN THE SUPREME COURT OF THE UNITED STATES

 

ANTHONY SISTRUNK
Petitioner

Vv.

UNITED STATES OF AMERICA
Respondent

 

PROOF OF SERVICE
Thereby certify that a true and correct copy of the foregoing Brief In Support
Of Petitioner Anthony Sistrunk’s Petition For Writ Of Certiorari to the United States
Supreme Court was served on each party to the above proceeding or that party’s

counsel and was mailed this 5" day of May, 2021, to the following:

AUSA Micheal A. Consiglio,
United States Attorney’s Office,
228 Walnut St., PO Box 11754,

Harrisburg, PA 17108

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

/s/ John F. Yaninek

John F. Yaninek
Counsel for Respondent,
Maurice Atkinson
